No. 20-7320

IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020

ZBIGNIEW M. LASKOWSKI,
Petitioner,
v
WASHINGTON STATE DEPARTMENT OF
LABOR AND INDUSTRIES,

Respondent.

CERTIFICATE OF SERVICE
|, Zbigniew M. Laskowski, do swear or declare that on this date, May 29, 2021, as required by
Supreme Court Rule 29, | have served and enclosed corrected PETITION FOR REHEARING
and MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS on each party to the above
proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United State mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days:
The names and addresses of those served are as follows:

PETER B. GONICK

Deputy Solicitor General

OFFICE OF THE ATTORNEY GENERAL
PO Box 40100

Olympia, WA 98504-0100

| declare under penalty of perjury that the foregoing is true and correct.

Executed on May 29, 2021.

SIGNATURE
